audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Compton Police Department California
GR-90-01-002
November 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Compton, California Police Department (CPD).  The purpose of the grants is to enhance community policing.  The CPD was awarded a total of $2,079,508 to hire 20 new police officers and redeploy the equivalent of 4.1 existing full-time police officers from administrative duties to community policing.

We found the Compton Police Department to be in material non-compliance with COPS' grant requirements.  We reviewed the CPD's compliance with eight essential grant conditions and found weaknesses in each of the areas we tested: budgeting for local officer positions, hiring of additional officers, local match requirements, reimbursement requests, redeployment tracking, retention of officer positions, community policing, and grantee status reporting.  As a result, we question $1,690,398 in grant funds received and recommend an additional $76,311 be put to better use. 1

The CPD violated the COPS Office's non-supplanting requirement.  Compton reduced its budgeted number of locally funded officer positions after receiving COPS grant funds and did not maintain the required number of additional police officers.  In our judgment, these decreases were related to the grantee's receipt of COPS funding.
 
	For the Phase I grant, the CPD was reimbursed 96 percent of its allowable costs when it was only entitled to be reimbursed for 47 percent.  For the UHP grant, the CPD was reimbursed 66 percent of its allowable costs when it was only entitled to be reimbursed for 34 percent.  As a result, the CPD failed to meet its local match requirement for the Phase I and UHP grants.
 
	Because the CPD violated the COPS Office's non-supplanting requirement, we conclude that retention of the UHP funded officers cannot occur.  Further, the City plans to dissolve its police department on September 1, 2000 and contract with another jurisdiction for police services.  We cannot provide any assurances that the positions will indeed be retained because the contract does not specify a level of effort..

	The CPD did not enhance community policing by the number of sworn officers and FTEs funded by the Phase I, UHP and MORE 96 grants.

	The CPD could not document or demonstrate the actual redeployment of 4.1 sworn officer FTEs into community policing activities as a result of the hiring of grant funded civilians.

	Several of the CPD's status reports were either not supported by accounting records, not filed timely, or not filed.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I. 



The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.